                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

11    Case Number: A-02030021                                                                        Page 1 of 1



            On 8 March 2002, we received an allegation of plagiarism in an IVSF proposal submitted by
            subjects 1 and 2.' We observed about three pages of substantially similar material in the subjects'
            proposal that appeared to have been copied from an NSF award.* The similar material was part of
            the management portions of both the proposal and the award. The subjects' proposed project was
            significantly different from the award's supported project. We noted that subject 2 had been listed
            as a participant on an earlier almost identical declined proposal (the earlier proposal) submitted
            about a year before the award by the same PI and co- PI.^ Finally, we noted that subject 2 and the PI
            and co-PI of the earlier proposal worked at the same institution when it was submitted.

            Subject 2 explained that he had written the sections used in the subjects' proposal for the earlier
            proposal. He explained that he had given this earlier developed material to subject 1 to use in their
            proposal. He asked us to contact the PI for confirmation.

            The PI told us that subject 2 had been part of a group that had developed the earlier proposal when
            subject 2 was at his institution. The PI explained that, although he could not be sure who wrote
            what sections originally, he said it was their working style for each member of the group to write
            sections and then merge these into a full proposal and rework it together. He said that the subject
            had been a part of this group that developed the earlier proposal. He also said that subject 2 had
            informed him that he was going to use the award as a model and, although subject 2 did not say he
            would use a portion of it verbatim, the PI said he certainly could if he wished.

            We determined that subject 2 had participated in the original development of the earlier proposal
            and, although he should have been more careful in noting the source of the material he copied, he
            did have the right to use it. This case is closed and no further action will be taken.




111                   1        Agent           I       Attorney         I       Supervisor       I           AIGI

111     Sign I date
                      I                        I                        I                        I
